Appellate Case: 21-6028

Document: 010110514816

Date Filed: 04/29/2021

UNXTED-SXAXESCOURT_OILABPEALS.

Page: 1
FILED
United States Court of Appeals
Tenth Circuit

FOR THE TENTH CIRCUIT

April 29, 2021
Christopher M. Wolpert
Clerk of Court

EDDIE DEWAYNE LEE,
Petitioner - Appellant,
v.
SCOTT CROW,

No. 21-6028
(D.C. No. 5:20-CV-00950-SLP)
(W.D. Okla.)

Respondent - Appellee.

ORDER DENYING CERTIFICATE OF APPEALABILITY*

Before MORITZ, BALDOCK, and EID, Circuit Judges.

Petitioner-Appellant Eddie Lee, an Oklahoma state prisoner proceeding pro se, filed
a habeas petition under 28 U.S.C. § 2254 in the Western District of Oklahoma challenging
his sentences for (1) murder in the first degree, (2) two counts of burglary in the first degree,
(3) two counts of rape in the second degree, (4) two counts of forcible oral sodomy, and
(5) robbery with firearms. He pled guilty to these offenses at fifteen years of age and was
subsequently sentenced to two life sentences and 20 years of imprisonment, to be served
consecutively. The district court dismissed Lee’s habeas application as time-barred and
denied a certificate of appealability (“COA”). Now, Lee seeks a COA from this court.

* This order is not binding precedent except under the doctrines of law of the case, res
judicata, and collateral estoppel. It may be cited, however, for its persuasive value
consistent with Fed. R. App. P. 32.1 and 10th Cir. R. 32.1.

Appellate Case: 21-6028

Document: 010110514816

Date Filed: 04/29/2021

Page: 2

■I-f-the-di-str4ct-CQurt-dismisses_aJiabeas_petition on procedural grounds without
reaching the petitioner’s underlying constitutional claims, a COA will issue when the
petitioner shows “jurists of reason would find it debatable whether the petition states a
valid claim of the denial of a constitutional right” and “jurists of reason would find it
debatable whether the district court was correct in its procedural ruling.” Sack v.
McDaniel, 529 U.S. 473, 478 (2000). The petitioner must satisfy both parts of this
threshold inquiry before we will hear the merits of the appeal. Gibson v. Klinger, 232 F.3d
799, 802 (10th Cir. 2000).
For the reasons explained below, no reasonable jurist could conclude the district
court’s procedural ruling was incorrect. Lee’s petition is untimely under 28 U.S.C.
§ 2244(d), and he is not eligible for statutory or equitable tolling. Therefore, exercising
jurisdiction under 28 U.S.C. §§ 1291 and 2253(a), we deny his application for a COA and
dismiss this appeal.
* * *

A petitioner must generally seek habeas relief within one year from the latest of:
(A) the date on which the judgment became final by the conclusion of direct
review or the expiration of the time for seeking such review;
(B) the date on which the impediment to filing an application created by State
action in violation of the Constitution or laws of the United States is removed,
if the applicant was prevented from filing by such State action;
(C) the date on which the constitutional right asserted was initially
recognized by the Supreme Court, if the right has been newly recognized by
the Supreme Court and made retroactively applicable to cases on collateral
review; or

2

Appellate Case: 21-6028

Document: 010110514816

Date Filed: 04/29/2021

Page: 3

—/-DI-the-date-Qn-which-theJactuaLoredicate of the claim or claims presented
could have been discovered through the exercise of due diligence.
28 U.S.C. § 2244(d)(1). That one-year limitation period is tolled during the time in which
“a properly filed application for State post-conviction or other collateral review” is
pending. 28 U.S.C. § 2244(d)(2). In addition, we may toll the one-year limitation period
“in rare and exceptional circumstances.” See Gi bson, 232 F.3d at 808. A habeas petitioner
is only entitled to equitable tolling, however, “if he shows (1) that he has been pursuing his
rights diligently, and (2) that some extraordinary circumstance stood in his way and
prevented timely filing.” Holland v. Florida, 560 U.S. 631,649 (2010). “Simple excusable
neglect is not sufficient.” Gibson, 232 F.3d at 808.
Here, Lee argues the one-year limitation period should run from the date the
Supreme Court decided Montgomery v. Louisiana, 577 U.S. 190 (2016), which made the
rule announced in Miller v. Alabama, 567 U.S. 460 (2012), retroactive on state collateral
review. Because Lee’s habeas application is untimely even under his argument, we assume
without deciding that the one-year limitation period ran from the time Montgomery was
decided, on January 25, 2016. Under this assumption, Lee must have filed his habeas
petition by January 25, 2017. He did not file until February 13, 2018, well after the oneyear period expired. Nonetheless, Lee contends his petition is subject to equitable tolling
because he was denied access to his legal materials and the law library.
“Equitable tolling is a rare remedy to be applied in unusual circumstances,” and the
petitioner “bears a strong burden to show specific facts to support his claim of
extraordinary circumstances and due diligence.” Al-Yousif v. Trani, 779 F.3d 1173, 1179
3

Appellate Case: 21-6028

Document: 010110514816

Date Filed: 04/29/2021

Page: 4

-(4-Qth Cir.—2QL5-] -(internal-citations _and_quotations_omittedl. “TA1 negations regarding
insufficient library access, standing alone, do not warrant equitable tolling.” \Afeibley v.
Kaiser, 50 F. App’x 399, 403 (10th Cir. 2002) (unpublished). When a petitioner alleges
that prison officials withheld his legal materials, he must provide specific facts to show
how the alleged denial of his legal materials impeded his ability to file a federal habeas
petition. Id.
In this case, Lee submits several articles suggesting the prison he is incarcerated at
had multiple lockdowns between 2015 and 2017. He also provides requests for his legal
materials dated September 17,2017; September 20, 2017; September 26, 2017; October 2,
2017; and October 18, 2017. While these exhibits demonstrate some restriction on Lee’s
ability to access legal research and his legal documents, “[temporary absence of [legal
materials or law library access] does not automatically warrant equitable tolling.” VMnston
v. Allbaugh, 743 F. App’x 257, 259 (10th Cir. 2018) (unpublished). Moreover, prison
officials consistently responded to Lee’s grievances telling him how to access his legal
materials and that legal research would be provided upon request. Even if we assume Lee
could not access his legal materials during September and October 2017 (the months during
which his requests were filed), this only accounts for two months. Lee’s habeas petition

i

We note that Lee’s argument that prison officials withheld his legal materials is better
analyzed as an impediment under 28 U.S.C. § 2244(d)(1)(B), which provides that the oneyear period runs from the date on which the impediment to filing an application created by
state action is removed, if the applicant was prevented from filing by such state action. See
NAfeibley, 50 F. App’x at 403. But in either event, Lee fails to allege specific facts to
demonstrate how the alleged denial of his legal materials impacted his ability to file a
federal habeas petition.
4

Appellate Case: 21-6028

Document: 010110514816

Date Filed: 04/29/2021

Page: 5

AyasdrledaparoximatelyAhirteenmionths after the one-vear limitation period expired. His
allegations do not evince extraordinary circumstances or due diligence. Accordingly, Lee
is not entitled to equitable tolling.
* * *

For these reasons, no reasonable jurist could conclude the district court’s procedural
ruling was incorrect. We therefore deny Lee’s application for a CO A and dismiss this
appeal. We grant Lee’s motion to proceed in forma pauperis.
Entered for the Court
Bobby R. Baldock
Circuit Judge

5

Appellate Case: 21-6028

Document: 010110526401

Date Filed: 05/24/2021

Page: 1

UNIXED STATES COURT OF APPEALS

FILED
United States Court of Appeals
Tenth Circuit

FOR THE TENTH CIRCUIT

May 24, 2021
Christopher M. Wolpert
Clerk of Court

EDDIE DEWAYNE LEE,
Petitioner - Appellant,
v.

No, 21-6028
(D.C. No. 5:20-CV-00950-SLP)
(W.D. Okla.)

SCOTT CROW,
Respondent - Appellee.
ORDER

Before MORITZ, BALDOCK, and EID, Circuit Judges.
Appellant’s petition for rehearing is denied.
Entered for the Court

CD.
CHRISTOPHER M. WOLPERT, Clerk

UNITED STATESCOURT OF APPEALS

FILED
United States Court of Appeal:
____ Tenth Circuit

FOR THE TENTH CIRCUIT

April 8, 2021
Christopher M. Wolpert
Clerk of Court

EDDIE DEWAYNE LEE,
Petitioner - Appellant,
v.

No. 21-6028
(D.C. No. 5:20-CV-00950-SLP)
(W.D. Okla.)

SCOTT CROW,
Respondent - Appellee.

ORDER
This matter is before the court on pro se appellant Eddie DeWayne Lee’s Motion
Challenging Anti-Terrorism and Effective Death Penalty of 1996, which filing th

e court

construes and accepts as Mr. Lee’s combined opening brief and application for certificate
of appealability (“COA”).
The court has before it all of the information it needs to decide whether to g

rant

Mr. Lee a COA and will decide that issue in due course.
Entered for the Court
CHRISTOPHER M. WOLPERT, Clerk

by: Lisa A. Lee
Counsel to the Clerk

Case 5:20-cv-00950-SLP Document 5 Filed 09/23/20 Page 1 of 2

PN-TTIE-UNITEDST-AT-ES-DISTRIC-T-GOURT-FOR-THE
WESTERN DISTRICT OF OKLAHOMA
EDDIE DEWAYNE LEE,

)
)
)

Petitioner,

)
)
)

v.
SCOTT CROW, Director,
Respondent.

Case No. CIV-20-950-SLP

)
)
)

REPORT AND RECOMMENDATION
Petitioner, a pro se state prisoner seeking habeas corpus relief,1 has filed
an application for leave to proceed in forma pauperis. Doc. 2. On review of the
application, the undersigned finds Petitioner has sufficient funds to prepay the
$5 filing fee. Specifically, Petitioner has $973.96 in his institutional accounts.
See id. at 3; id. Atts. 1, 2. Because Petitioner has not shown he is entitled to
authorization by this Court to proceed without prepayment of the $5 filing fee,
see 28 U.S.C. § 1915(a)(1), the undersigned recommends that the Court deny
Petitioner’s application, Doc. 2.
The undersigned further recommends the dismissal without prejudice of
this action unless Petitioner pays the $5 filing fee in full to the Clerk of Court

i

United States District Judge Scott L. Palk has referred this matter to
the undersigned Magistrate Judge for proceedings consistent with 28 U.S.C. §
636(b)(1)(B), (C). See Doc. 4.

Case 5:20-cv-00950-SLP Document 5 Filed 09/23/20 Page 2 of 2

within—tw-enty-ene—(24-)—days—o£_any_order_adopting this Report and
Recommendation. See Local Civil Rule 3.3(e).
The undersigned advises Petitioner that he may file an objection to this
Report and Recommendation with the Clerk of Court on or before Wednesday,
October 7, 2020. The undersigned further advises Petitioner that failure to
timely object to this Report and Recommendation waives the right to appellate
review of both factual and legal issues contained herein. See M oore v. U nited
States, 950 F. 2d 656, 659 (10th Cir. 1991).
The undersigned directs the Clerk of Court to transmit a copy of this
Report and Recommendation through electronic mail to the Attorney General
of the State of Oklahoma at the following address: fhc.docket@oag.ok.gov.
This Report and Recommendation disposes of all issues and terminates
the referral to the undersigned Magistrate Judge in this matter.
ENTERED this 23rd day of September, 2020.

SUZANNE MITCHELL
UNITED STATES MAGISTRATE JUDGE

2

Case 5:20-cv-00950-SLP Document 12 Filed 02/25/21 Page 1 of 8

«•

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF OKLAHOMA
EDDIE DEWAYNE LEE,

)
)
)
)
)
)
)
)
)

Petitioner,
v.

SCOTT CROW,
Respondent.

Case No. CIV-20-950-SLP

ORDER
Petitioner, Eddie DeWayne Lee, a state prisoner appearing pro se, filed this action
pursuant to 28 U.S.C. § 2254 for a writ of habeas corpus.

He challenges the

constitutionality of his state court convictions and sentences in the District Court of
Oklahoma County, State of Oklahoma, Case Nos. CF-1986-5774, murder in the first
degree; CF-1986-5783, burglary in the first degree; and CF-1986-5788, burglary in the first
degree, two counts of rape in the second degree, two counts of forcible oral sodomy, and
robbery with firearms. Petitioner was 15-years old at the time he committed the offenses.
The state district court sentenced Petitioner to two life sentences and 20 years of
imprisonment, to be served consecutively.
Pursuant to 28 U.S.C. § 636(b)(1)(B) and (C), this matter was referred for initial
proceedings to United States Magistrate Judge Suzanne Mitchell, and later reassigned to
United States Magistrate Judge Amanda Maxfield Green. Judge Green conducted an initial
review of the Petition, see Rule 4 of the Rules Governing § 2254 Cases, and issued a Report
and Recommendation [Doc. No. 10] (R&R) finding the Petition should dismissed as

Case 5:20-cv-00950-SLP Document 12 Filed 02/25/21 Page 2 of 8

untimely filed under the Antiterrorism and Effective Death Penalty Act (AEDPA), 28
U.S.C. § 2244(d). Judge Green further found that Petitioner is not entitled to statutory or
equitable tolling of the limitations period.
Petitioner timely filed an Objection [Doc. No. 11] to the R&R.1 Thus, the Court
must make a de novo determination of the portions of the R&R to which a specific
objection is made, and may accept, reject, or modify the recommended decision, in whole
or in part. See 28 U.S.C. § 636(b)(1); Fed. R. Civ. P. 72(b)(3). As set forth, Petitioner
challenges only Judge Green’s finding that there is no basis for equitable tolling of the
limitations period. Review of all other issues addressed by Judge Green is waived. See
Moore v. United States, 950 F.2d 656, 659 (10th Cir. 1991); see also United States v. 2121
E. 30th St., 73 F.3d 1057, 1060 (10th Cir. 1996).
The AEDPA imposes a one-year statute of limitations for Section 2254 habeas
petitions brought by state prisoners. See 28 U.S.C. § 2244(d)(1). The period begins to run
from “the latest of’ four dates:
(A) the date on which the judgment became final by the
conclusion of direct review or the expiration of the time for
seeking such review;
(B) the date on which the impediment to filing an
application created by State action in violation of the
Constitution or laws of the United States is removed, if the
applicant was prevented from filing by such State action;

1 Petitioner’s filing is entitled “Challenging Anti-Terrorism and Effective Death Penalty Act of
1996.” Petitioner mailed his filing on February 11, 2021. See Envelope [Doc. No. 11-2]. The
R&R provides any objections must be filed on or before February 16, 2021. The Court construes
this filing as Petitioner’s timely objection to the R&R.
2

•*

Case 5:20-cv-00950-SLP Document 12 Filed 02/25/21 Page 3 of 8

(C) the date on which the constitutional right asserted was
initially recognized by the Supreme Court, if the right has been
newly recognized by the Supreme Court and made
retroactively applicable to cases on collateral review; or
(D)
the date on which the factual predicate of the claim or
claims could have been discovered through the exercise of due
diligence.
Id. Unless a petitioner alleges facts implicating the provisions set forth in § 2244(d)(1)(B),
(C) or (D), the limitations period generally begins to run from the date on which the
conviction became final. See Preston v. Gibson, 234 F.3d 1118, 1120 (10th Cir. 2000).
As stated, Petitioner does not challenge the Magistrate Judge’s finding that, for
purposes of § 2244(d)(1)(A), his conviction became final on March 22, 1987. He further
does not dispute that he did not timely file his Petition on or before April 24, 1997, the
expiration of the one-year period for prisoners, like Petitioner, whose convictions became
final prior to the effective date of the AEDPA. See R&R at 4 (citing United States v. Hurst,
322 F.3d 1256, 1260 (10th Cir. 2003)).2
The Magistrate Judge also addressed the timeliness of the Petition under
§ 2244(d)(1)(C) based on Petitioner’s reliance upon Graham v. Florida, 560 U.S. 48 (2010)
made retroactive by Montgomery v. Louisiana, — U.S.

136 S.Ct. 718 (2016) as grounds

for habeas relief. The Magistrate Judge concluded the Petition was untimely under that

2 As Magistrate Judge Green noted, pursuant to the prison mailbox rule, the Court deems the
Petition filed on June 21, 2018, the day Petitioner signed the Petition and placed it in the prison
mailing system, even though it was received and file-stamped in this Court on June 27, 2018. See
R&R at 3, n. 4.
3

Case 5:20-cv-00950-SLP Document 12 Filed 02/25/21 Page 4 of 8

triggering provision as well. See R&R at 5-8.3 Petitioner makes no challenge to that
finding.
Additionally, Petitioner does not dispute that he is not entitled to any statutory
tolling of the limitations period. As the Magistrate Judge found, he did not attempt to file
any form of state post-conviction relief until after expiration of the respective limitations
periods and, therefore, he is not entitled to statutory tolling. See R&R at 4-5, 7-8.
Finally, the Magistrate Judge found Petitioner is not entitled to equitable tolling of
the limitations period. Petitioner’s objection is addressed only to the issue of equitable
tolling.
Petitioner argues that his facility has been on lockdown. He also argues his facility
does not have an “individual with some-type knowledge dealing with the Court’s
Procedures or Rules of Law.” See Obj. at 7. He states these factors prohibited his access
to a law library so that he could “work on [his] case” and “make [his] filing in a timely
fashion.” Id. He also points to certain policies of the Oklahoma Department of Corrections
providing for the number of hours per week the law libraries are to be open. These
allegations are missing from the Petition and were not addressed by Magistrate Judge
Green.4

3 As set forth in the R&R, Magistrate Judge Green “assume[d], favorably to Petitioner, that his
argument relies on the new rule of law recognized by Miller [v. Alabama, 567 U.S. 460 (2012)]
and made retroactive by Montgomery.” Id. at 6-7.
4 In the Petition, Petitioner referenced the doctrine of equitable tolling but stated no facts to support
why equitable tolling should apply. Instead, Petitioner argued equitable tolling is warranted
because the “State Court’s opinion involved an unreasonable determination of the United States
Supreme Court’s determination of Graham v. Florida, 560 U.S. 48 (2010) made retroactive by
4

Case 5:20-cv-00950-SLP Document 12 Filed 02/25/21 Page 5 of 8

Section 2244(d)’s limitations period “may be equitably tolled if the petitioner
‘diligently pursues his claims and demonstrates that the failure to timely file was caused
by extraordinary circumstances beyond his control.’” Loftis v. Chrisman, 812 F.3d 1268,
1272 (10th Cir. 2016) (quoting Marsh v. Soares, 223 F.3d 1217, 1220 (10th Cir. 2000)).
“Equitable tolling is a rare remedy to be applied in unusual circumstances” and “[a]n
inmate bears a strong burden to show specific facts to support his claim of extraordinary
circumstances and due diligence.” Al-Yousifv. Trani, 779 F.3d 1173,1179 (10th Cir. 2015)
(internal quotation marks and citations omitted)).
“[I]t is well established that ignorance of the law, even for an incarcerated pro se
petitioner, generally does not excuse prompt filing [of a petition for writ of habeas
corpus].” Marsh, 223 F.3d at 1220 (internal quotation marks and citation omitted).
Moreover, “allegations regarding insufficient library access, standing alone, do not warrant
equitable tolling.” Weibley v. Kaiser, 50 F. App’x 399, 403 (10th Cir. 2002). Petitioner
must provide “specificity regarding the alleged lack of [law library] access and the steps
he took to diligently pursue his federal claims.” Miller v. Marr, 141 F.3d 976, 978 (10th
Cir. 1998). “It is not enough to say that the [prison] facility lacked all relevant statutes and
case law or that the procedure to request specific materials was inadequate.” Id;, see also
Mayes v. Province, 376 F. App’x 815, 816-17 (10th Cir. 2010) (“In order to establish a

Montgomery v. Louisiana, [~ U.S.
136 S.Ct. 718 (2016)] which announced a new rule of
constitutional law applying to cases on collateral review.” See Pet. [Doc. No. 1] at 21 (citing 28
U.S.C. § 2244(d)(1)(C)). Petitioner’s citations reference a triggering date for the commencement
of the statute of limitations period. As set forth, Magistrate Judge Green considered whether the
Petition was timely under § 2244(d)(1)(C) and found it was not - a finding Petitioner does not
challenge.
5

Case 5:20-cv-00950-SLP Document 12 Filed 02/25/21 Page 6 of 8

violation of the constitutional right of access, an inmate must demonstrate, among other
things, how the alleged shortcomings in the prison actually hindered his efforts to pursue a
legal claim.” (internal quotation marks and citation omitted)).
Additionally, “[w]hile prison lockdowns are uncontrollable, they merely impede
access to the relevant law, which [the Tenth Circuit] ha[s] continuously ruled insufficient
to warrant equitable tolling.” Winston v. Allbaugh, 743 F. App’x 257,258 (10th Cir. 2018)
(citations omitted). Thus, “equitable tolling is not justified by prison lockdowns in the
absence of a showing of additional circumstances that prevented timely filing.” Id. at 259;
see also Jones v. Taylor, 484 F. App’x 241,242-43 (10th Cir. 2012) (although “a complete
denial of access to materials at a critical time may justify equitable tolling” no such tolling
was warranted based on allegations that defendant was “a layman with limited knowledge
of the law”, prison law library had “only some law books on a few shelves”, prisoners
could access law library “only with pre-approval and then only for limited periods of time”
and that “he was denied access to the library during a facility lockdown lasting nearly six
months”).
Here, Petitioner does not provide any specificity with respect to his allegations of
his denial of access to a law library. He does not state whether he requested legal materials,
or what legal materials were needed. He also does not provide any dates as to when he
was denied access. Additionally, Petitioner does not describe the circumstances of the
lockdown or the dates during which he was subject to any lockdown. Finally, Petitioner
fails to show how he otherwise diligently pursued his claims. In this regard, and most

6

Case 5:20-cv-00950-SLP Document 12 Filed 02/25/21 Page 7 of 8

fundamentally, Petitioner fails to explain why he waited over five and a half years after
Miller and more than one year after Montgomery to pursue his applications for state post­
conviction relief. For all these reasons, Petitioner has not satisfied his strong burden to
demonstrate with specific facts that grounds for equitable tolling of the limitations period
exist.5
IT IS THEREFORE ORDERED that the Report and Recommendation [Doc. No.
10] is ADOPTED and the action is dismissed with prejudice as untimely pursuant to 28
U.S.C. § 2244(d).6 A separate judgment shall be entered accordingly.
IT IS FURTHER ORDERED that pursuant to Rule 11(a) of the Rules Governing
Section 2254 Cases, the Court must issue or deny a certificate of appealability (COA) when
it enters a final order adverse to a petitioner. A COA may issue only upon “a substantial
showing of the denial of a constitutional right.” See 28 U.S.C. § 2253(c)(2). When the
district court dismisses a habeas petition on procedural grounds, the petitioner must make
this showing by demonstrating both “[1] that jurists of reason would find it debatable
whether the petition states a valid claim of the denial of a constitutional right and [2] that

5 Magistrate Judge Green further found no basis to bypass the statute of limitations based on a
fundamental miscarriage of justice and the Court concurs with this analysis. See R&R at 10.
Petitioner raises no objection to this finding.
6 A dismissal on grounds the Petition is untimely should be with prejudice. Taylor v. Martin, 757
F.3d 1122, 1123 (10th Cir. 2014) (denying COA and dismissing appeal of § 2254 habeas petition
dismissed with prejudice as untimely under § 2244(d)); see also Davis v. Miller, 571 F.3d 1058,
1061 n. 2 (10th Cir. 2009) (recognizing that dismissal under Fed. R. Civ. P. 41(b) of § 2254 habeas
petition without prejudice was tantamount to dismissal with prejudice because “the one-year
statute of limitations bars [petitioner] from refiling his [habeas] petition”); Brown v. Roberts, 177
F. App’x 774, 778 (10th Cir. 2006) (“Dismissal of a [§ 2254 habeas] petition as time barred
operates as a dismissal with prejudice^]”).
7

Case 5:20-cv-00950-SLP Document 12 Filed 02/25/21 Page 8 of 8
« ’ ♦.

jurists of reason would find it debatable whether the district court was correct in its
procedural ruling.” Slack v. McDaniel, 529 U.S. 473, 484 (2000). The Court finds that
reasonable jurists would not debate the correctness of the Court’s determinations that the
Petition is time-barred and that Petitioner has not demonstrated any circumstances excusing
the untimeliness of his Petition. The Court therefore denies a COA.
IT IS SO ORDERED this 25th day of February, 2021.

SCOTT L.PALK
UNITED STATES DISTRICT JUDGE

8

Case 5:20-cv-00950-SLP Document 13 Filed 02/25/21 Page 1 of 1
f *

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF OKLAHOM A
EDDIE DEWAYNE LEE,
Petitioner,
v.

SCOTT CROW,
Respondent.

)
)
)
)
)

Case No. CIV-20-950-SLP

)
)
)
)

JUDGMENT
In accordance with the Order entered this 25th day of February, 2021, this matter is
DISMISSED WITH PREJUDICE. Further, a certificate of appealability is denied.
IT IS SO ORDERED this 25th day of February, 2021.

SCOTT L. PALK
UNITED STATES DISTRICT JUDGE

HV-^HE-€OURT-OFeRIMINAL-APPEALS
OF THE STATE OF OKLAHOMA
EDDIE DEWAYNE LEE,

,N|?a vL0££™NAL APPEALS
STATE OF OKLAHOMA
OCT -8 2019

)
)

Petitioner,

JOHN D. HADDEN
CLERK

)
)

-vs-

)

No. PC-2019-168

)

THE STATE OF OKLAHOMA,

)
)

Respondent.

)

ORDER AFFIRMING DENIAL
OF POST-CONVICTION RELIEF
The Petitioner has appealed to this Court from an order of the
District Court of Oklahoma County denying his third application for
post-conviction relief in Case Nos. CRF-1986-5774, CRF-1986-5783,
and CRF-1986-5788.
On March 12, 1987, Petitioner entered pleas of guilty to the
charges in all three cases.

In Case No. CRF-1986-5774, Petitioner

was convicted of Murder in the First Degree and was sentenced to life
imprisonment. In Case No. CRF-1986-5783, Petitioner was convicted
of Burglary in the First Degree and was sentenced to twenty years
imprisonment. In Case No. CRF-1986-5788, Petitioner was convicted
and sentenced as follows:

Count 1, Burglary in the First Degree,

No. PC-2019-168, Lee v. State

twenty-years-imprisonment;_Count_27 Rape in the Second Degree,
fifteen years imprisonment; Count 3, Forcible Oral Sodomy, twenty
years imprisonment; Count 4, Forcible Oral Sodomy, twenty years
imprisonment, Count 5, Rape in the Second Degree, fifteen years
imprisonment;

and

Count

6,

Robbery

With

Firearms,

life

imprisonment. The District Court ordered the sentences in all counts
in Case No. CRF-1986-5788 to run concurrently with each other, but
the sentences in the three cases were ordered to run consecutively
with each other. Petitioner was fifteen years old when the crimes in
these cases were committed.
Petitioner did not seek to withdraw his guilty pleas within
applicable time periods, and thus failed to perfect direct appeal
proceedings from his Judgments and Sentences.

Petitioner has

previously filed applications for post-conviction relief that were
denied by the District Court. Relief was also denied on Petitioner’s
post-conviction appeals to this Court. Lee v. State, No. PC-1997-638
(Okl.Cr. May 27, 1997); Lee v. State, No. PC-1997-1620 (Okl.Cr.
December 18, 1997).
Petitioner’s arguments in this matter are primarily based on the
Graham/Miller/Montgomery trilogy of United States Supreme Court

No. PC-2019-168, Lee v. State

-eases—holding—the—Eighth Amend merit's cruel

and

unusual

punishments clause forbids a sentencing scheme that mandates life
in prison without the possibility of parole for all juvenile offenders,
and applying the new substantive rule of constitutional law
retroactively in cases on collateral review.

See Martinez v. State,

2019 OK CR 7, 442 P.3d 154. Petitioner acknowledges that he was
not sentenced to life in prison without the possibility of parole in
these cases; and that he has been considered for parole five times
during his almost thirty-three years of incarceration.

Petitioner

complains that he is not being given a meaningful or realistic
opportunity for release and his parole is not being objectively
reviewed due to the lack of measurable parole guidelines. Petitioner
also complains that he has never been afforded an individualized
sentencing hearing, as discussed in Luna v. State, 2016 OK CR 27,
387 P.3d 956; and Stevens v. State, 2018 OK CR 11, 422 P.3d 741.
Finally, Petitioner claims he was subjected to an unconstitutional
reverse certification process in these cases.
Petitioner has failed to establish entitlement to any relief in
this post-conviction proceeding.

Post-conviction review provides

petitioners with very limited grounds upon which to base a

No. PC-2019-168, Lee v. State

_Gollat€Fal-at4aek-on-their-judgm«nts—iiogan-y—Stater20t3-OK-CR_27
1 3, 293 P.3d 969, 973. All issues that were previously raised and
ruled upon by this Court in Petitioner’s direct appeal are
procedurally barred from further review under the doctrine of res
judicata and all issues that could have been previously raised but
were not are waived for further review. 22 O.S.2011, § 1086; Logan,
supra.

Such issues may not be the basis of a post-conviction

application unless the court finds that there is sufficient reason
why the otherwise procedurally barred or waived issues were not
previously asserted or adequately raised. Id.
First, Petitioner’s claims concerning the constitutionality of his
reverse certification process are waived or procedurally barred
because they could have and should have been raised during his
guilty plea proceedings, in direct appeal proceedings, or in his
previous post-conviction proceedings,

Id.

Second, individualized

sentencing hearings are only applicable to situations where the
State has or is trying to sentence a juvenile offender to life
imprisonment without the possibility of parole. The State has not
and is not trying to sentence Petitioner to life imprisonment without
the possibility of parole and thus his arguments are without merit.

No. PC-2019-168, Lee v. State

-Finally—“

toa

juvenile offender. Graham, 560 U.S. at 74, 130 S.Ct. at 2030; Miller,
567 U.S. at 479, 132 S.Ct. at 2469.” Martinez v. State, 2019 OK CR
7, If 8, 442 P.3d 154, 157.

Based upon the length of Petitioner's

sentences and the current status of the law, we find that Petitioner
has some meaningful opportunity to obtain release on parole in
these cases during his lifetime. Id.
Therefore, the order of the District Court of Oklahoma County
denying Petitioner’s subsequent application for post-conviction
relief in Case Nos. CRF-1986-5774, CRF-1986-5783, and CRF-19865788 should be, and is hereby, AFFIRMED. Pursuant to Rule 3.15,
Rules of the Oklahoma Court of Criminal Appeals, Title 22, Ch. 18,
App. (2019), the MANDATE is ORDERED issued upon the filing of
this decision with the Clerk of this Court.
IT IS SO ORDERED.
WITNESS OUR HANDS AND THE SEAL OF THIS COURT this
ftHi day of

2019.

cr

No. PC-2019-168, Lee v. State

towil/vW')

DANAK

, Vice Presiding Judge

GARY L./LUMPKIN, Judge
^<M-rL/oL

ROBERT L. HUDSON, Judge

SCOTT ROWLAND, Judge
ATTEST:

Clerk
PA/F

6

0

- •>

tEWISrPRESIDING^JUDGE, DISSENTING:
I respectfully dissent. This case is effectively indistinguishable
from Martinez v. State, 2019 OK CR 7, in which a majority of the
Court adopted what I regard as an unreasonable application of
clearly established federal law, as set forth in Miller u. Alabama, 567
US 460, 132 S;Ct. 2455, 183 L.Ed.2d 407 (2012), in dealing with
consecutive life-without-parole equivalent sentences.
Petitioner is forty-eight years old. He has served more than 32
years of a life sentence for murder, and has been denied parole five
times. Should he be granted parole on the current life sentence, it
appears that he must serve at least one-third of his consecutive
twenty-year sentence (6 years, 8 months), and one-third of his
consecutive life sentence (15 years), before he is actually eligible for
release from prison on parole. Detwiler v. State, 2019 OK CR 20, ^
2 (Lewis, P.J., dissenting).
Discounting the possibilities that (1) Petitioner receives parole
on each of his remaining sentences on the earliest possible date,
and (2) some five decades of imprisonment would have no negative
impact on his current life expectancy, I conclude that his chances

Lee v. State, No. PC-2019-168
. -•!

of any meaningful opportunity to obtain actual release from prison
on parole are at best slim, and, more realistically, none.
This

life-without-parole-equivalent

punishment*

imposed

without a judicial finding that Petitioner was an irreparably corrupt
or permanently incorrigible juvenile, clearly violates the Eighth
Amendment as interpreted in Miller, even though his sentences
have long been final.

Montgomery v. Louisiana,

US ___, 135

S.Ct. 1546, 191 L.Ed.2d 635 (2015).
Like Judge Kuehn, I would remedy this constitutional error by
affirming the controlling sentence of life imprisonment with the
possibility of parole for murder, and modifying the remaining terms
to be served concurrently. Montgomery, 577 U.S. at

136 S.Ct.

at 736 (holding that a State may remedy a Miller violation, without
“litigating the sentence, by affording the offender an opportunity
for eventual release on parole).

I- .

. #**

KUEHNy-VTPiJTrDISSENTING:
While Petitioner was a juvenile, he received
consecutive
sentences in three cases, totaling two life sentences and a sentence
of twenty years. Taken together, these sentences do not afford
Petitioner a “meaningful opportunity to obtain release based
on
demonstrated maturity and rehabilitation.” Graham v, Florida, 580
U.S. 48, 75 (2010).
Petitioner may not have been specifically sentenced to life
without the possibility of parole, but these sentences will keep
Petitioner iincarcerated beyond any reasonable possibility of release.
Unlike the Majority, I consider the effect of these ssentences in the
aggregate. I continue to maintain that the Supreme Court’s clear
intention is to prohibit lifetime incarceration of persons who
commit
crimes as juveniles, without an individualized determination that
the offender was irreparably corrupt or permanently incorrigible, or
any reasonable chance for release. Martinez v. State 2019 OK CR 7
II 3, 442 P.3d 154, 157-58 (Lewis, P.J., dissenting). I would affirm
the sentence of life imprisonmerit for murder, and modify the other

V

sentences to be served concurrently, thus affording Petitioner an
opportunity for eventual release on parole. Id.,

5, 442 P.3d at 158.

I further disagree with the Majority’s inexplicable conclusion
that Petitioner waived this claim. Petitioner’s claim is explicitly
based on Graham v. Florida, 560 U.S. 48 (2010), Miller v. Alabama,
567 U.S. 460 (2012), and Mongomery v. Louisiana, 577 U.S.

136

S.Ct. 718 (2016). It is beyond question that these cases were
decided long after Petitioner’s convictions and sentences were
imposed, and after his direct appeal was decided. We cannot fault
Petitioner for failing, in previous proceedings, to bring a claim that
was not then recognized as a ground for relief.

2

FILED IN DISTRICT COURT
OKLAHOMA COUNTY
IN-THEDIST-RICT-COURT-OF-OKLAHOMACOUNTYSTATE OF OKLAHOMA

JAN 11 2019
RICK WARREN
COURT CLERK

EDDIE DEWAYNE LEE,
a.k.a. EDDIE DEWAYNE THOMAS
Petitioner,
v.
THE STATE OF OKLAHOMA,
Respondent.

)
)
)
)
)
)
)
)
)
)

46.

Case Nos. CRF-1986-5774
CRF-1986-5783
CRF-1986-5788

ORDER DENYING THIRD APPLICATION FOR POST-CONVICTION RELTF.F
This matter comes on for consideration of the Petitioner’s third Application for Post-Conviction
Relief filed in the above-referenced case and the State’s Response thereto, and the Court being
folly advised finds as follows:
MATERIALS REVIEWED FOR DECISION
The Court has reviewed the following materials in reaching its decision: Petitioner’s Application
for Post-Conviction Relief, filed February 13, 2018; the State’s Response to Third Application
for Post-Conviction Relief, and attachments thereto, filed March 15, 2018; Petitioner’s
Supplement to Application for Post-Conviction Relief, filed March 23, 2018; Petitioner’s Reply
to State’s Response to Third Application for Post-Conviction Relief, filed March 29, 2018; and
district court files for Oklahoma County Case Nos. CRF-1986-5774, CRF-1986-4783, and CRF1986-5788.
FINDINGS OF FACT
1. On March 12, 1987, Petitioner, represented by counsel, entered pleas of guilty to the crimes
charged in the above-referenced cases1 and was sentenced as follows pursuant to negotiated
plea agreement:
CRF-1986-5774:

1. Murder in the First Degree

Life imprisonment

CRF-1986-5783:

1. Burglary in the First Degree

Twenty (20) years imprisonment

CRF-1986-5788:

1. Burglary in the First Degree

Twenty (20) years imprisonment

Petitioner (DOB 6/19/71) was 15 years old at the time he committed these crimes. He was initially charged as a
juvenile in Oklahoma County Juvenile Petition Nos. JF-1986-1094, JF-1986-1096, and JF-1986-1162. On October
27, 1986, the District Court certified him to stand trial as an adult in each case. Petitioner, by and through counsel,
perfected an appeal to the Court of Criminal Appeals from the certification orders. However, while that appeal was
pending, he entered his guilty pleas to the adult charges. Upon motion of Petitioner, the Court of Criminal Appeals
dismissed the appeals in Case No. J-86-926, with prejudice, on April 20, 1987.

2. Rape in the Second Degree , Fifteen (15) years imprisonment
3. Forcible Oral Sodomy

Twenty (20) years imprisonment

4. Forcible Oral Sodomy

Twenty (20) years imprisonment

5. Rape in the Second Degree

Fifteen (15) years imprisonment

7. Robbery with Firearms

Life imprisonment

In accordance with the plea agreement, the Court ordered all counts in CRF-1986-5788 to be
served concurrently with each other and ordered the three cases to be served consecutively to
each other.---------------------- ------- ---------- -------------------------------3. Petitioner was advised of and acknowledged his right to appeal and the manner in which to
invoke that right. However, he did not seek an appeal.
4. On January 10, 1989, Petitioner, pro se, filed his original Application for. Post-Conviction
Relief. Therein, he raised no legal challenge to his convictions or sentences but merely stated
he would amend the application to present such claims upon receipt of unspecified court
documents. Finding that Petitioner had presented no grounds upon which post-conviction
relief could be granted, the Honorable Thomas C. Smith denied the application on February
28,1989. Petitioner did not seek a post-conviction appeal.
5. On May 7,1997, Petitioner, pro se, filed a Petitioner for Appeal Out of Time in the Court of
Criminal Appeals. On May 16, 1997, he filed a Motion for Leave to File Supplemental
Petition for Appeal Out of Time. Because he had not first sought and been denied relief in the
District Court, the appellate court declined jurisdiction. Lee v. State, No. PC-97-638 (Okl.Cr.
May 27, 1997).
6. On June 10, 1997, Petitioner, pro se, filed his second Application for Post-Conviction Relief
under the guise of his juvenile case numbers. Therein, he raised the following propositions of
error:
Proposition I

Petitioner’s Fifth Amendment privilege against selfincrimination and Sixth Amendment right to counsel were
violated when the trial court based its findings and rulings
upon psychiatric evaluations and testimony that was given
by a court ordered psychiatrist who examined and evaluated
Petitioner with Petitioner ever having been advised of Fifth
Amendment privilege and Sixth Amendment right, and
where the record is silent as to a waiver of these basic
fundamental rights;

Proposition II

The trial court abused its discretion when, in certifying
Petitioner to stand trial as an adult, it rejected overwhelming
2

1

.evidence that Petitioner was amendable to rehabilitation
within the juvenile system and based its decision on personal
opinion and evidence outside of the record and not before the
court; and
Proposition III

Petitioner was deprived of his rights to due process, an
appeal, and effective assistance of counsel on appeal from
the Court of Criminal Appeals dismissal of his juvenile
certification appeal.

7. On June 30, 1997, the Honorable Daniel L. Owens denied the application. Petitioner was
advised of his right to appeal from that decision. But he again failed to seek a post-conviction
appeal.
8. On October 7, 1997, Petitioner, pro se, filed a Petition for Nunc Pro Tunc Order wherein he
essentially reasserted the same claims of error raised in his second post-conviction
application and requested the trial court to withdraw its order denying the same. On October
21,1997, Judge Owens denied the petition.
9. On November 4, 1997, Petitioner, pro se, filed a motion requesting the trial court hold his
time for collateral appeal in abeyance and reconsider its order denying his second
Application for Post-Conviction Relief. Judge Owens denied that motion on November 7,
1997.
10. Petitioner subsequently attempted to appeal the order denying his second Application for
Post-Conviction Relief to the Court of Criminal Appeals. The Court declined jurisdiction
over the untimely appeal. Lee v. State, No. PC-97-1620 (Okl.Cr. December 18, 1997).
11. On February 13, 2018, Petitioner, pro se, filed the instant Application for Post-Conviction
Relief raising the following propositions of error:

1

Proposition I

Petitioner’s sentences are in violation of the Eighth
Amendment as in the U.S. Supreme Court cases of Miller v.
Alabama and Montgomery v. Louisiana;

Proposition II

Lack of sentencing guidelines violates Petitioner’s right to
due process and the declared policy of the State of
Oklahoma;

Proposition III

The trial court violated the separation of powers by failing to
prescribe the standards of rehabilitation that Petitioner must
meet as part of his sentence and thereby impermissibly
delegated its authority to the Executive Branch; and

Proposition IV

There is evidence of material facts, not previously presented
and heard, that requires modification of the sentence in the
3

I
!
!

------------———---- —interests.of_justice„

______

12. On March 23,2018, Petitioner, pro se, filed a Supplement to Application for Post-Conviction
Relief raising the following additional proposition of error:
Proposition V

Petitioner was subjected to a reverse certification process as
a juvenile in violation of the Eighth Amendment as in the
U.S. Supreme Court cases of Miller v. Alabama and
Montgomery v. Louisiana.

FINDINGS OF FACT & CONCLUSIONS OF LAW

C~\

The Court of Criminal Appeals has made clear the Post-Conviction Procedure Act, Title 22 O.S.
§ 1080, et seq., is neitherasubstituteTora direct appeal nor a means for a second appeal: Maines
v. State, 1979 OK CR 71, If 4, 597 P.2d 774, 775-76; Fox v. State, 1994 OK CR 52, J 2, 880 P.2d
383, 384: The scope of this remedial measure is strictly limited and does not allow for litigation
of issues available for review at the time of direct appeal. Johnson v. State, 1991 OK CR 124, flf
3-4, 823 P.2d 370, 372; Castro v. State, 1994 OK CR 53, If 2, 880 P.2d 387, 388. “Issues that
were previously raised and ruled upon are procedurally barred from further review under the
doctrine of res judicata; and issues that were not raised previously on direct appeal, but which
could have been raised, are waived for further review.” Logan v. State, 2013 OK CR 2 f 3 293
P.3d 969, 973.
In regards to subsequent Applications for Post-Conviction Relief, the Act specifically provides:
All grounds for relief available to an applicant under the act must be raised in his
original, supplemental or amended application. Any ground finally adjudicated or
not so raised, or knowingly, voluntarily and intelligently waived in the proceeding
that resulted in the conviction or sentence or in any other proceeding the applicant
has taken to secure relief may not be the basis for a subsequent application,
unless the court finds a ground for relief asserted which for sufficient reason was
not asserted or was inadequately raised in the prior application.
22 O.S. § 1086 (emphasis added).
Sufficient reason for failing to previously raise or adequately assert an issue requires a showing
that some impediment external to the defense prevented the petitioner and counsel from properly
raising the claim. Johnson v. State, 1991 OK CR 124, f 7, 823 P.2d 370, 373. “Petitioner has the
burden of establishing that his alleged claim could not have been previously raised and thus is
not procedurally barred.” Robinson v. State, 1997 OK CR 24, Tf 17, 937 P.2d 101,108.
In this matter, the issues asserted in Propositions II and III could have been raised in a timely
certiorari appeal, which Petitioner effectively forfeited, or in either of his two previous post­
conviction applications. He offers no sufficient reason for this Court to consider those claims.
Propositions II and III are procedurally barred by waiver.

4

-In-Proposition-IV-.-Eet-itiQner-alIeges-there-exists_evidence of material farts, not preyirmsly
presented and heard, that requires modification of his sentence in the interests of justice. See 22
O.S. § 1080(d). While post-conviction relief may be based on newly discovered evidence,
Petitioner presents no such evidence here. Rather, he offers only his own bare statement
regarding proactive steps he has taken towards rehabilitation while incarcerated. Petitioner’s
post-conviction conduct in prison is not material to the validity of his convictions or the
sentences imposed. Proposition IV is meritless.
Propositions I and V are both predicated on intervening changes in constitutional law announced
by the Supreme Court in Miller v. Alabama, 567 U.S. 460, 132 S.Ct. 2455, 183 L.Ed.2d 407
(2012), and Montgomery v. Louisiana, 136 S.Ct. 718, 734, 193 L.Ed.2d 599 (2016). Because
these cases were decided after Petitioner filed his last post-conviction application, these issues
are viable for review in a subsequent post-conviction proceeding. Stevens v. State, 2018 OK CR
ll, f l87 422 P.3d 741;146-47vseealsdBrys6h v. State, \995 OK CR 57,T2, 903-pT2d'3 J3,
334.
In Miller, the Supreme Court declared that any statutory sentencing scheme that mandates a
sentence of life without parole for a juvenile convicted of a homicide offense is unconstitutional.
Miller, 567 U.S. at 479,132 S.Ct. at 2469. In Montgomery, the Court held that Miller announced
a new, substantive rule of constitutional law that applies retroactively in state post-conviction
proceedings. Montgomery, 136 S.Ct. 718, 734. The Oklahoma Court of Criminal Appeals has
held the principles in Miller and Montgomery apply to Oklahoma’s discretionary sentencing
scheme. Luna v. State, 2016 OK CR 27, ^ 14, 387 P.3d 956, 961.

f
^

As to Proposition I, Petitioner fails to establish that Miller and Montgomery are applicable to
him. Petitioner has not been sentenced to life without parole. See Stevens, 2018 OK CR 11, 26,
422 P.3d at 748 (“To establish a claim under Miller and Montgomery on post-conviction review,
the petitioner must establish that he is serving a sentence of life without parole for a homicide
committed while he or she was under 18 years of age . . .”) (Emphasis added). Rather he was
sentenced to life with the possibility of parole for murder in CRF-1986-5774, twenty (20) years
imprisonment for a non-homicide offense in CRF-1986-5783, and a total of life imprisonment
with the possibility of parole for several non-homicide offenses in CRF-1986-5788. As such, this
matter is distinguishable.
Moreover, even were this Court to consider Petitioner’s sentences in these three separate and
distinct cases in aggregate, Petitioner fails to demonstrate denial of a meaningful opportunity to
obtain release based on demonstrated maturity and rehabilitation. See Graham v. Florida, 560
U.S. 48, 75, 130 S.Ct. 2011, 2030, 176 L.Ed.2d 825 (2010); Budder v. Addison, 851 F.3d 1047
(10th Cir. 2017).
Under 57 O.S. § 332.7, Petitioner is eligible for parole after serving one-tkird of his sentences.
Pursuant to the long-standing policy of the Oklahoma Pardon and Parole Board, a sentence of
life imprisonment is calculated as 45 years for purposes of calculating parole eligibility.2 See
Anderson v. State, 2006 OK CR 6, ^ 24, 130 P.3d 273, 282; Runnels v. State, 2018 OK CR 27, J
2 Thus, Petitioner reaches parole eligibility from his life sentences after, at most, 15 years each and from his 20-year
sentence after approximately 6 years and 8 months.
5

—23^_n.8>_426.£.3.d_61^,_62L_n.8._Indeed. the State has submitted documentation supporting that
the Board has regularly reviewed Petitioner for parole from his life sentence for murder on at
least five separate occasions, beginning in 2001,3 which Petitioner does not refute.
The structure of the sentences imposed in these cases did not constitute a judgment at the outset
that Petitioner would never be fit to reenter society. Petitioner’s sentences are subject to
Oklahoma’s pardon and parole system. “A State is not required to guarantee eventual freedom to
a juvenile offender,” nor does the Eighth Amendment “require the State to release that offender
during his natural lifetime.” Graham, 560 U.S. at 75, 130 S.Ct. at 2030; accord Miller, 567 U.S.
at 479, 132 S. Ct. at 2469; Luna, 2016 OK CR 27,1 7, 387 P.2d at 959. Petitioner fails to show
that his sentences amount to a sentence the Supreme Court has deemed forbidden by the Eighth
Amendment. Proposition I is without merit.
Finally, Petitioner argues in Proposition V that the process by which he was certified to stand
trial as an adult is also violative of Miller. However, Miller did not invalidate Oklahoma’s adult
certification process for juvenile offenders. Indeed, the Supreme Court in Miller recognized the
distinction between the discretion available to a judge at a transfer stage and the discretion
available to the judge at a post-trial sentencing in adult court. Miller, 567 U.S. at 488-89, 132
S.Ct. at 2474-75. Proposition V is meritless.
This Court has disposed of the Petitioner’s application as a matter of law based upon the
pleadings. There is no issue of material fact for which an evidentiary hearing is necessary to
resolve. 22 O.S. § 1084.
IT IS THEREFORE ORDERED, ADJUDGED AND DECREED that the Petitioner’s third
Application for Post-Conviction Relief is DENIED in its entirety.

CE
JAN 11 20!9

DISTRICT JUDGE

RICK WARREN
NOTICE OF RIGHT TO APPEAL
A final judgment under this act [Post-Conviction Procedure Act, 22 O.S. § 1080, et
seq.] may be appealed to the Court of Criminal Appeals on petition in error filed
either by the applicant or the State within thirty (30) days from entry of the
judgment. Upon motion of either party on filing of notice of intent to appeal, within
ten (10) days of entering the judgment, the district court may stay the execution of the
judgment pending disposition on appeal; provided the Court of Criminal Appeals
may direct the vacation of the order staying the execution prior to final disposition of
the appeal. 22 O.S. § 1087. The party desiring to appeal from the final order must file
a Notice of Post-Conviction Appeal with the Clerk of the District Court within twenty
3 See State’s Exh. 12, Parole Ballots.

6

r'

(20) days from the date the order is filed in the District Court. Rule 5.2(C)(1), Rules of
11urOklahomaCDurtofCriminal^lppealsfTit\t-22TGh.-i8-Appw-(2018).----------------------CERTIFICATE OF SERVICE
I hereby certify that on the I
day of January, 2019,1 mailed a certified copy of the above and
foregoing order, with postage thereon fully prepaid, to:
Eddie D. Lee, DOC #160684
Lawton Correctional Facility
8607 S.E. Flower Mound Rd.
Lawton, OK 73501
PETITIONER, PRO SE
and that a true and correct copy of the above and foregoing order was hand-delivered to:
Jennifer M. Hinsperger, Assistant District Attorney
Oklahoma County District Attorney’s Office
COUNSEL FOR RESPONDENT

Deputy Court Clerk

7

